OIG Investigative Reports, Newport PA., September 27, 2012 - Perry County Man Charged with Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT of PENNSYLVANIA
NEWS
Perry County Man Charged with Student Loan Fraud
FOR IMMEDIATE RELEASE
September 27, 2012
The United States Attorney's Office for the Middle District of Pennsylvania announced that Robert Thomas Price, Jr., age 45, of Newport, PA, was indicted Wednesday by a grand jury in Harrisburg on charges of student loan fraud.
According to United States Attorney Peter J. Smith, Price conspired with his former wife, a former employee of Harrisburg Area Community College, to apply for approximately $92,000 in private student loans and approximately $13,000 in federal student PELL grants and Stafford loans between 2005 and 2007. Over the course of three years, Price received the requested loans and grants which were to be used to pay for the cost of attendance at HACC by Price. Instead, Price allegedly used the funds to purchase illegal drugs, jewelry, tattoos, and vehicles.
In addition to conspiracy, Price is also charged with two counts of mail fraud related to the $5,000 checks representing Stafford loan payments he received.
If convicted, Price faces a term of imprisonment of up to 20 years and a fine of $250,000.
The case was investigated by the Pennsylvania Higher Education Assistance Agency, Investigative Services, and the United States Department of Education, Office of Inspector General. HACC also cooperated with the investigators. The case is being prosecuted by Assistant United States Attorney Joseph J. Terz.
* * * *
An Indictment or Information is not evidence of guilt but simply a description of the charge made by the Grand Jury and/or United States Attorney against a defendant. A charged Defendant is presumed innocent until a jury returns a unanimous finding that the United States has proven the defendant's guilt beyond a reasonable doubt or until the defendant has pled guilty to the charges.
Top
Printable view
Last Modified: 10/03/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov